<html>
<title> - [H.A.S.C. No. 112-132] RECENT DEVELOPMENTS IN THE MIDDLE EAST: THE SECURITY SITUATION IN THE SYRIAN ARAB REPUBLIC</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 112-132]

                   RECENT DEVELOPMENTS IN THE MIDDLE 

                  EAST: THE SECURITY SITUATION IN THE 

                          SYRIAN ARAB REPUBLIC 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 19, 2012


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, April 19, 2012, Recent Developments in the Middle East: 
  The Security Situation in the Syrian Arab Republic.............     1

Appendix:

Thursday, April 19, 2012.........................................    31
                              ----------                              

                        THURSDAY, APRIL 19, 2012
 RECENT DEVELOPMENTS IN THE MIDDLE EAST: THE SECURITY SITUATION IN THE 
                          SYRIAN ARAB REPUBLIC
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....     5
Panetta, Hon. Leon E., Secretary of Defense, U.S. Department of 
  Defense........................................................     3

                                APPENDIX

Prepared Statements:

    Dempsey, GEN Martin E........................................    42
    McKeon, Hon. Howard P. ``Buck''..............................    35
    Panetta, Hon. Leon E.........................................    39
    Smith, Hon. Adam.............................................    37

Documents Submitted for the Record:

    Attachment To Accompany Letter from International Assessment 
      and Strategy Center........................................    53
    Letter from International Assessment and Strategy Center to 
      Mr. Turner.................................................    51
    Letter from Mr. Turner to Secretary Clinton (Department of 
      State) and General Clapper (ODNI)..........................    49

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    61
    Ms. Sanchez..................................................    61
    Ms. Speier...................................................    62
 RECENT DEVELOPMENTS IN THE MIDDLE EAST: THE SECURITY SITUATION IN THE 
                          SYRIAN ARAB REPUBLIC

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 19, 2012.
    The committee met, pursuant to call, at 10:04 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. I was just 
informed that first votes could happen between 10:10 and 10:25. 
The Secretary has a hard close time at 12:30, so we are going 
to be as expeditious as we possibly can here.
    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets today to receive testimony on the 
security situation in Syria from the Secretary of Defense, the 
Honorable Leon Panetta, and the Chairman of the Joint Chiefs of 
Staff, General Martin Dempsey. Gentlemen, thank you for your 
distinguished service to our Nation and thank you for being 
here today.
    The Syrian conflict is now in its second year and the 
situation remains both uncertain and dire. As we convene, a 
tenuous ceasefire is in place. It comes on the heels of 
horrifying violence at the hands of the Assad [President Bashar 
al-Assad] regime, yet even though Assad has committed the 
ceasefire, reports indicate that he continues to inflict 
violence on the Syrian people. President Assad's fierce 
crackdown has been ruthless, including flagrant human rights 
violations, extra judicial killings, use of force against non-
combatant civilians, including children, and interference with 
the provision of medical aid and humanitarian assistance. To 
date, the United Nations estimates the death toll from the 
crisis at 9,000, while other estimates put the death toll as 
high as 12,000.
    Just over a year ago, in the midst of the Arab Spring, the 
Syrian people peacefully took to the streets calling for the 
opportunity to elect their leadership through a free and fair 
democratic process. This desire for freedom and justice from an 
oppressive regime embodies the essence of what is driving the 
opposition, and is one that we can relate to and should 
support. The President has stated that the violence in Syria 
must end and that Assad must go. But it remains completely 
unclear how the President will accomplish these goals.
    In addition to the humanitarian concerns that I believe we 
all share, I am very concerned about the implications for 
regional conflict. As recently as April 10th, Assad-backed 
military units shot across the border into Syrian refugee camps 
in Turkey, killing five individuals. Additionally, violence has 
spilled into Lebanon and Iraq could begin to behave erratically 
as it considers the prospect of a Sunni-controlled government 
succeeding the Assad regime and its western border or alliances 
forming between Syria's Sunni population and Iraq's own Sunni 
population.
    Moreover, the situation presents a strategic opportunity to 
deal a blow to known supporters of terrorism in the region as 
Iran continues to back the Assad government and groups such as 
Hezbollah have enjoyed support and residence in Syria. On the 
other hand, there is much we do not know about the opposition. 
Syria also maintains robust air defenses that limit military 
options.
    Therefore I am not recommending U.S. military intervention, 
particularly in light of our grave budget situation unless the 
national security threat was clear and present. Nevertheless, 
these reflections lead me to wonder what the United States can 
do to stem the violence and hasten President Assad from power. 
We also need to understand what we are doing to insure the 
security of one of the world's largest stockpiles of chemical 
and biological weapons. To paraphrase General Petraeus, how 
does this all end? I look forward to your insights into the 
security situation and our way forward in Syria.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 35.]
    The Chairman. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. In the interest of 
time, let me just say that I agree completely with the 
chairman's opening remarks. The Assad regime has made a clear 
and awful choice to simply kill as many of its own people as he 
can to maintain power. It is an international outrage that 
should be condemned by all nations. I applaud both the 
Department of Defense and the Secretary of State and our U.N. 
[United Nations] representative for their work to call 
attention to this outrage and try to build international 
support to stop it. I think we need greater support in nations 
like Russia and China should rise to the challenge and work 
with us to find a solution to this problem and they clearly 
have not done enough.
    I also agree with the chairman, the fact that I don't see a 
military option for us in this area for a wide variety of 
reasons, I have a longer statement which I will submit for the 
record that explains that, but we should look at every possible 
option for how we can stop this. I also agree that it has 
profound impacts for a region that was already unstable in many 
ways.
    So I look forward to the testimony from our witnesses today 
to hear what our best options are going forward to try to 
contain this and to give this committee a full briefing on 
where the situation is at, and where they see it going as 
difficult as that prediction might be. I thank the chairman and 
I thank both of our witnesses for their leadership of our 
country and for being before us today, and with that, I yield 
back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    The Chairman. Thank you. Secretary Panetta.

 STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Panetta. Thank you, Mr. Chairman, Representative 
Smith, Members of the committee, thank you for the opportunity 
to be able to discuss what is obviously a very tense and fluid 
situation in Syria.
    Widespread demands for political change in Syria started 
more than a year ago, emerging out of the Arab Spring that was 
impacting on other countries, and it obviously then hit Syria 
as well. But rather than trying to meet the legitimate demands 
of the people, the regime of Bashar al-Assad turned instead to 
violence against its own people. That violence has been brutal 
and it has been devastating. It has put the Syrian people in a 
desperate and difficult situation. It has outraged the 
conscience of all good people, and it has threatened stability 
in a very important part of the world.
    The United States has made clear that the Assad regime has 
lost its legitimacy, and that this crisis has no effective 
solution without Assad's departure. As the President has 
stated, Assad must go. Recent days are testing whether the 
Assad regime will live up to all of its responsibilities to the 
Syrian people and to the international community. Restoring 
calm to the cities and towns across Syria is just one test for 
Assad in the days ahead. Assad is responsible for fully abiding 
by the transition plan that has been outlined by the Joint 
[U.N.-Arab League] Special Envoy, Kofi Annan.
    He also faces deep skepticism about his motives, a 
skepticism based on a long train of Assad's deceitful actions 
to date, including broken promises to his own people and to the 
international community. The United States is committed to 
holding the Syrian regime to its obligations. We are leading an 
international effort to help stop the violence and support a 
peaceful, political transition in Syria. Even as we speak, 
Secretary of State Clinton is meeting with our international 
partners in Paris to determine what additional steps should be 
taken to make that happen. We know achieving that end is a 
tough task. From every angle, the situation in Syria is 
enormously complex. There is no silver bullet. I wish there 
was, but there isn't.
    At the same time the situation is of grave consequence to 
the Syrian people. There are many others who are affected by 
what happens in Syria as well, including Syria's neighbors, 
Turkey, Lebanon, Iraq, Israel, Jordan, and all nations with a 
vital interest in the Middle East.
    Meanwhile, it is fair to say that Iran is Syria's only ally 
in the region. No other country stands to lose more than Iran 
from the eventual fall of the Assad regime, which is why Iran 
is supporting the regime with material, financial, and 
technical assistance. We also know that the complex problems in 
Syria cannot all be solved through the unilateral actions of 
the United States, or for that matter, any other country. They 
demand a coordinated, international response that is uniquely 
tailored to the situation we are confronting in Syria.
    There are, however, certain principles that have guided the 
Administration's response to unrest across the Middle East. 
These basic principles have shaped our responses in Tunisia, in 
Egypt, in Libya, and now in Syria.
    First, we oppose the use of violence and repression by 
regimes against their own people. Second, we support the 
exercise of universal human rights. And third, we support 
political and economic reforms that can meet the legitimate 
aspirations of ordinary people throughout the region. Our 
policy in Syria is very clear: We support a political and 
democratic transition that fulfills the Syrian people's 
greatest aspirations. To support that objective, the United 
States is leading international efforts along five tracks.
    First, we are supporting efforts to maintain international 
pressure and advance transition, political transition in Syria. 
We join with our partners in the U.N. Security Council 
including now Russia and China in calling for the urgent 
comprehensive and immediate implementation of all aspects of 
the Annan plan.
    Second, we are further isolating the Assad regime, we are 
encouraging other countries to join the United States, the 
European Union, and the Arab League in imposing strong 
sanctions against it. These sanctions are putting Assad under 
greater pressure than ever before. We are undermining the 
financial lifelines of the regime; three United States 
executive orders have targeted senior leadership, Commercial 
and the Central Bank of Syria. The result is that 30 percent of 
the regime's lost revenues have occurred as a result of those 
sanctions. The U.S. and the EU [European Union] have imposed a 
strong oil embargo, the exchange rate has depreciated by more 
than 50 percent and their GDP [Gross Domestic Product] has been 
in a serious decline, approaching almost a minus 8 percent in 
2011 and more now.
    Third, we are strengthening and unifying the nonviolent 
political opposition in Syria. The United States is in the 
process of providing direct nonlethal support, including 
communications and medical equipment to the civilian lead 
opposition. We are taking these actions in concert with similar 
steps taken by the friends of Syria and other international 
partners to assist the opposition.
    Fourth, we are providing emergency humanitarian assistance 
to the Syrian people. With the total commitment so far in 
excess of $25 million, food rations, medical supplies, water, 
and other relief supplies have been provided.
    And lastly, we are reviewing and planning for a range of 
additional measures that may be necessary to protect the Syrian 
people. By acting along these lines, we are increasing pressure 
on the Assad regime every day. Make no mistake, one way or 
another, this regime will ultimately meet its end. There are 
legitimate questions about what steps are necessary to achieve 
this end, with some arguing for an approach similar to the one 
we took in Libya. The fact is that our recent experience in 
Libya is helping to inform the approach that the United States 
is taking towards Syria. First, our efforts are strengthened, 
strengthened by multilateral international consensus, that is 
extremely important to our ability to keep maximum pressure on 
the Assad regime.
    Second, we should maintain clear regional support from the 
Arab world itself. Nations of the Arab world are outraged at 
the regime and what they are doing to the Syrian people.
    Third, we should offer substantial U.S. contributions where 
we can bring unique resources to bear.
    Fourth, we should have a clear legal basis for our approach 
there. And that clearly involves close consultations with 
Congress.
    And fifth and finally, our approach must keep all options 
on the table, all options on the table. While recognizing the 
limitations of military force, we must be prepared to take 
whatever action is required. But let me also say that the 
situation in Syria is different from the one in Libya, in some 
very important ways; this is not Libya. In Libya, there was 
widespread international support in the Arab world and 
elsewhere in a clear Security Council authorization for 
military intervention. And NATO [North Atlantic Treaty 
Organization] was authorized to act on that. No such consensus 
currently exists regarding Syria.
    The opposition is also not as well organized and does not 
control territory is what we saw in Libya. There are almost 100 
different groups. On the one hand that indicates that this is 
an insurgency that is broad based, but on the other hand, it 
makes it difficult to determine who to help if they cannot come 
together and organize as a single opposition force.
    We must also be mindful, as Secretary Clinton has noted, of 
the possibility that outside military intervention will make a 
volatile situation even worse and place even more innocent 
civilians at risk. The United States has made clear that we are 
on the side of the Syrian people and they must know that the 
international community has not underestimated either their 
suffering or their impatience. The Defense Department, as we 
always do, is reviewing and is continuing to review plans for a 
variety of possible scenarios should the President determine 
that further steps are necessary. In the meantime, our only 
clear path is to keep moving diplomatically through the 
international community in a resolute and deliberate manner to 
find a way to return Syria to the Syrian people. If we remain 
dedicated to that effort I think we ultimately can prevail. 
Thank you.
    [The prepared statement of Secretary Panetta can be found 
in the Appendix on page 39.]
    The Chairman. Thank you, Mr. Secretary.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Mr. Chairman and Congressman 
Smith and other distinguished Members of this committee. I 
appreciate the opportunity to appear before you today and 
discuss the evolving situation in Syria. The situation is 
tragic for the people of Syria and for the region. Real 
democratic reforms should have been the Assad regime's response 
to last year's peaceful protest. Instead, the regime responded 
with brutality. Syria's internal convulsions are having 
consequences for a region already in turmoil. Refugees are 
fleeing, spillover into neighboring countries is an increasing 
concern, and of course, we also need to be alert to 
opportunistic extremists who may seek to exploit the situation, 
as well as the need to be especially alert to the fate of 
Syria's chemical and biological weapons, they need to stay 
exactly where they are.
    With other conscientious nations, the United States is 
applying diplomatic and economic pressure on the regime to 
compel Assad and his accomplices to stop the killing their own.
    Our military's role to this point has been limited to 
sharing information with our partners, our regional partners, 
but should we be called on to help secure U.S. interests in 
other ways, we will be ready. We maintain an agile regional and 
global posture. We have solid military relationships with every 
country on Syria's border. Should we be called, our 
responsibility is clear--provide the Secretary of Defense and 
the President with options, and these options will be judged in 
terms of their suitability, their feasibility, and their 
acceptability.
    We have a further responsibility to articulate risk and the 
potential implications to our other global commitments. In 
closing, I want to assure you and the Nation that America's 
Armed Forces are ready to answer the call, wherever that takes 
us. I look forward to your questions.
    [The prepared statement of General Dempsey can be found in 
the Appendix on page 42.]
    The Chairman. Thank you very much. We--the vote has been 
called. We are 5 minutes into the vote. I will ask questions 
and get as much done as we can before, and we will break. Those 
of you who desire to leave earlier to get over there to vote, I 
would encourage you, I think there are three votes, to return 
as quickly as we can so we can keep this moving forward.
    Mr. Secretary, according to media reports this morning, the 
French President stated that action should be taken to 
establish humanitarian corridors. What are your views on this 
option? Have you been aware of that?
    Secretary Panetta. Mr. Chairman, we have looked at a 
variety of options as to what could be done, including the 
possibility of developing humanitarian corridors. And again, we 
are prepared to do whatever the international community 
ultimately agrees ought to be done. But clearly, we have made 
plans along those lines.
    The Chairman. General Dempsey, you stated that Syria's 
chemical and biological weapons need to stay exactly where they 
are. What can be done and what is being done to ensure that 
Syria's chemical and biological stockpiles are secured?
    General Dempsey. At this point, Chairman, we are, as I 
mentioned in my statement, sharing information and intelligence 
with our regional partners. And in the aggregate, we feel like 
we have a good understanding of the disposition, the current 
disposition of Syria's chemical and biological weapons.
    The Chairman. Thank you. Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman. I guess one of my 
concerns is, it's been said for a long time since the uprising 
has started that Mr. Assad's days are numbered, and he can't 
long last, but I have been worried about that ever since I was 
in Israel last summer and had some conversations about that. 
What is the path for that happening? Because as I said in my 
opening remarks, the Assad regime has sort of decided they 
don't care what the international community thinks. They are 
going to kill as many people as they need to kill to stay in 
power. Regrettably they are getting at least some sort of tacit 
support from important nations like Russia and China, and much 
more direct support from Iran and that makes them clearly 
different than Qadhafi and Libya. Qadhafi had no friends 
anywhere, he couldn't get that assistance.
    With that support, what are the mechanisms that we--the 
levers we need to pull to make sure the Assad regime, in fact, 
goes, or might that support not be enough to let them stay as 
violently as they need to?
    Secretary Panetta. I think the concerns that you have 
indicated, Congressman, are the concerns that we all share, 
that part of the problem here is that Assad still seems to 
maintain the loyalty of the military even though there have 
been significant defections, that the military still seems 
loyal and they continue to strike back at the Libyan people, 
even as this effort to try to achieve a ceasefire and try to 
reduce violence there, we still see continuing artillery 
barrages violating the whole effort.
    Mr. Smith. If I could focus on--what hope is there to get 
Russia and China to change their stance and actually be more 
aggressive about pressuring the Assad regime?
    Secretary Panetta. I think the fact that--obviously, that 
was a concern when they initially voted against the Security 
[Council] Resolution that would have taken action here, but 
they have come around, they have supported the resolution that 
was adopted, supporting Annan and his effort to try to achieve 
a ceasefire, and diplomatic pressure is being brought on both 
Russia and China, particularly Russia has had a longstanding 
relationship in that part of the world with Syria, to bring 
pressure on them to exercise whatever influence they can to try 
to ensure that they abide by the Annan plan.
    So there is some progress being made on that front. The 
additional steps that are important is that the international 
community continues to be very unified in taking action against 
that regime. There are additional sanctions that can be 
applied. We applied some very significant sanctions, they are 
having--they are putting great pressure on the regime itself. 
That pressure needs to continue.
    The third thing that I would indicate is that this is a 
broad-based insurgency, and I think it is fair to say that the 
Intelligence Community feels that because it is a broad-based 
insurgency, yes, he can strike back, and yes, he can try to 
continue to hold on, but ultimately his days are numbered and 
ultimately he will be taken down.
    Mr. Smith. Thank you. Thank you, Mr. Chairman. That is all 
I have.
    The Chairman. The committee will recess now until we are 
able to return after the votes. Thank you very much.
    [Recess.]
    The Chairman. The committee will come to order.
    Mr. Bartlett.
    Mr. Bartlett. Thank you. Mr. Secretary, in your oral 
testimony, you noted that the Administration has publicly 
committed to sending communications equipment to Syrian 
opposition groups and humanitarian organizations. I am aware of 
American companies that can provide the necessary hardware to 
the Syrian opposition groups and humanitarian efforts. What 
steps is the Administration taking to ensure the allocated 
funding and potential future allocations are dedicated to the 
procurement of U.S.-manufactured equipment? What steps are 
being taken to ensure American-made technologies are being 
reviewed and properly vetted?
    Secretary Panetta. Congressman, I think I will yield to 
General Dempsey on this as well.
    Secretary Panetta. But my sense is that most of the 
communications gear that we are talking about is made in this 
country, and that is primarily the communications gear that we 
would be transferring to the opposition leaders.
    General Dempsey. I have nothing further to add to that, 
Congressman. That program is being supervised by the Department 
of State.
    Mr. Bartlett. The State Department, other than the Office 
of Political Military Affairs, is typically not charged with 
providing communications equipment to besieged areas. And it is 
my understanding that the political and military affairs 
personnel at stake are not actively involved in determining the 
nature of what equipment should be distributed to Syria. Seeing 
as how the Department of Defense would have more precedent in 
such a role, what interagency coordination is occurring between 
the Department of State and Department of Defense?
    Secretary Panetta. Congressman, there is ongoing 
coordination with the Department of Defense, or with the 
Department of State, on this issue. We do have a liaison that 
is there and working with them, but let me give you a more in-
depth report as to what the level of that relationship is like. 
But there is--there is a military liaison that is working with 
the State Department on this issue.
    General Dempsey. I have nothing to add, Congressman.
    Mr. Bartlett. Thank you very much. I yield back, Mr. 
Chairman.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you both 
gentlemen, for being here once again and for your service to 
our country. As you know, Russia has not been very cooperative 
in moving the U.N. closer to authorizing some form of action in 
Syria. And I know a lot of us have been disappointed in trying 
to move something. Some Members have suggested that we use some 
sort of pressure on Russia to help convince them to be more 
helpful. For example, we could fence Cooperative Threat 
Reduction funds. Do you believe that is a good idea? Why or why 
not?
    Secretary Panetta. You know, at this stage, obviously the 
State Department is the one that is taking the lead in dealing 
with Russia, so I am not going to kind of prejudge what the 
State should or should not use as leverage with Russia. At this 
point, I would have to say that Russia has been cooperative 
with regards to enacting support for Annan's effort at a 
ceasefire. They seem to be working with the international 
community in trying to advance that ceasefire and getting it in 
place.
    The most important leverage, frankly, for Russia, is to try 
to make sure that they understand that, in fact, their 
interests are served by taking these steps, because once Assad 
goes, the interests that they have in Syria are going to go 
away unless they participate with the international community.
    Ms. Sanchez. General.
    General Dempsey. Thank you, Congresswoman. Just if I could 
broaden the aperture a bit and point out the places where we 
are cooperating with Russia in a very positive way.
    Ms. Sanchez. Great. I am not suggesting that I am one of 
those but do I hear from my colleagues we should----
    General Dempsey. Sure, yeah. And I guess my point would be 
we have to understand it in the context of the entire 
relationship, not this particular issue in isolation because we 
have terrific cooperation with them on the northern 
distribution network out of Afghanistan, counterterror, 
counterpiracy, counternarcotics. So I think we have to 
understand the entire thing in context and deal with them as we 
would other nations with whom we have a variety of 
relationships.
    Ms. Sanchez. Gentlemen, some have said that if we would 
just, and I quote this very loosely, ``handle Syria,'' that 
that would help us in what is brewing with respect to Iran, 
that one of the effects of military is that, of course, Assad 
has one of the largest army ground troops in the area and that 
that sort of buttresses Iran's, you know, some have called it 
bullying in the area. What do you say to that? That somehow 
Syria--that if we would get involved in Syria and we could help 
the people there move on to a more democratic or different type 
of government, that it would help us to bring the threat of 
Iran down in the neighborhood?
    Secretary Panetta. There is absolutely no question that if 
the Assad regime comes down that the one country in that part 
of the world that is even going to be further isolated is Iran. 
And Iran knows that and that is the reason they continue to 
provide some assistance to Assad is because they know that 
their interests are in maintaining the Assad regime, not in 
seeing it go down.
    General Dempsey. The other thing I think I would add, 
Congresswoman, is the fall of the Assad regime would be a 
serious blow to Iran, and I think General Jim Mattis has 
testified before this body to that effect. But saying that it 
is the key would be analogous to saying you are going to solve 
a Rubik's cube puzzle by lining up one side and neglecting the 
other three. This is a very complex region of the world and 
there are no, as the Secretary said in his opening comments, 
there are no silver bullets out there.
    Ms. Sanchez. Mr. Secretary, are there any circumstances 
under which the United States would get involved militarily? 
For example, what if Turkey invoked Article 5 of our NATO 
charter?
    Secretary Panetta. I think it is clear that the only way 
that the United States would get involved militarily is if 
there is a consensus in the international community to try to 
do something along those lines and then obviously ensure that 
the international community is able to get the authorities 
required in order to make that happen. The one area with 
regards to Article 5 in Turkey, Article 5 has only been enacted 
once after 9/11, as I recall. But they would have to make clear 
that what is happening there really does truly represent a 
direct threat to Turkey. And I think at this point that is 
probably a stretch.
    Ms. Sanchez. Thank you. And thank you, Mr. Chairman, for 
the time.
    The Chairman. Thank you. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much, and Mr. 
Secretary, General Dempsey, thank you for being here today. And 
Mr. Secretary, if the situation changes, and you believe that 
use of force in Syria becomes necessary, will this 
Administration seek authorization from Congress before taking 
action?
    Secretary Panetta. We will--we will clearly work with 
Congress if it comes to the issue of the use of force. This 
Administration wants to work within the War Powers provision to 
ensure that we work together, and not separately.
    Mr. Jones. Mr. Secretary, as a former Member of Congress, I 
have the biggest concern, and this has not pointed at this 
Administration, it could be at any administration that they 
seem to want to take the authority to decide whether or not 
they need to go into a country that is not been a threat, they 
might have evil dictators, they might have problems in those 
countries. But I have been very concerned. I actually went to 
the Federal courts with Dennis Kucinich and two other 
Republicans and two other Democrats. We went to the courts 
because of the decision and how it was made--I realize you were 
not there at the time--about Libya. I continue, and the 
American people seem to agree, that we in Congress have not 
exerted our Constitutional responsibilities when it comes to 
war. And I hope that if there is a decision including Iran as 
well as Syria, if the decision is made to commit American 
forces, that the President would feel an obligation to the 
American people, not to Congress necessarily, but the American 
people to explain and justify why we would take that kind of 
action.
    And again, I am talking about a situation where we are not 
being attacked, we just see things happening in other countries 
that we don't approve of. And I would hope, and I think you did 
give me this answer, but if you would reaffirm that if we have 
to use military force and as we are going to initiate that 
force, was it going to be our initiation that causes that force 
that the President, any President would come to Congress and 
the American people and justify the need to attack.
    Secretary Panetta. Congressman, as you understand, this 
President as other presidents will operate pursuant to the 
Constitution. The Constitution makes clear that the Commander 
in Chief should act when the vital interests of this country 
are in jeopardy. And I believe this President believes that if 
that, in fact, is the case he would do that in partnership with 
Congress in terms of taking any action.
    Mr. Jones. Well, I will make another statement and then I 
will work toward a closing, Mr. Chairman. I remember my good 
friend, Randy Forbes from Virginia, asked Secretary Gates when 
we went in and it seemed like the Administration if they called 
the leadership of the House and Senate, it must have been one 
call each House, each Senate. And Mr. Forbes asked Mr. Gates if 
the Libyans fired missiles in New York City, would that be an 
act of war? And I will have to say, because my friend from 
Virginia is a very articulate and a very intelligent gentleman, 
that he never got a straight answer.
    So I hope that you will prevail upon the Administration not 
to take those kind of actions as they did in Libya, whether it 
was justified or not. We won't get into that debate, but in my 
opinion that was really kind of a snub of Congress and the 
responsibility of Congress based on the Constitution.
    Secretary Panetta. Congressman, what I can assure you of is 
as long as I am Secretary, we won't take any action without 
proper legal authority.
    Mr. Jones. Mr. Secretary, thank you very much. And with 
that, Mr. Chairman, I will yield back my 39 seconds.
    The Chairman. Thank you. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. And thank you Mr. 
Secretary and Chairman, your service is both an inspiration to 
us and a blessing to our country. We thank you very much for 
it.
    I want to congratulate the Administration on your success 
with Russia and China, moving them to a very different place on 
this issue as compared to where they were just a few weeks ago. 
And Mr. Secretary, I think that the data you gave us about the 
exchange rate for the Syrian currency and the GDP are a 
reflection of the effectiveness of that coalition. But you also 
note that we do not yet have the level of consensus in the Arab 
world that existed for the Libyan problem. What do you see as 
the principle obstacles to achieving that kind of consensus 
with respect to Syrian regime?
    Secretary Panetta. I think the Arab world is struggling 
with the same issues that the whole international community is 
struggling with which is, in order to take additional actions, 
what in fact does make sense? You know, who is the opposition? 
How can we best assist the opposition? How do we best provide 
the kind of help that the Syrian people need in order to 
overcome the situation? What kind of pressures would best be 
placed on Assad in order to force that regime downward?
    All of those same difficult complex issues that the whole 
international community is dealing with, the Arab community is 
confronting as well. In Libya, that all came together; in 
Syria, it is still a difficult challenge to try to put those 
pieces together.
    Mr. Andrews. Do you suppose, this is a hypothesis, that the 
cohering factor in the Libyan situation was a sense that 
Qadhafi had completely lost the support of his own people, and 
no one wanted to be associated with a regime that was 
illegitimate in that sense? Do you think that Assad has simply 
not reached that point with his own people yet or is there some 
other factor that is diverting us from that consensus?
    Secretary Panetta. I think it is the factors that I pointed 
out in my testimony make this different from Libya. The fact 
that number 1, he does still enjoy, as I said, the loyalty of a 
good chunk of the Army and the military, and that makes it more 
challenging in terms of trying to undermine the regime. 
Secondly the opposition is dispersed, there are a lot of groups 
there that represent the opposition. In Libya, there were some 
different tribal groups that made up the opposition, they were 
holding territory. We knew who they were, we could define what 
the opposition was that needed assistance. This is much more 
difficult, there aren't geographic areas that are being held by 
the opposition, it is much more of an insurgency kind of 
opposition.
    Mr. Andrews. Mr. Secretary, if I may, taking off on that, 
you mentioned the phrase ``vital national interest'' a few 
minutes ago. Do you agree with the proposition that it is a 
vital national interest to the United States to discourage 
regimes which could serve as an incubator for asymmetric 
warfare against the United States?
    Secretary Panetta. I think that would, you know, obviously 
have to be debated on the issue of does it directly impact our 
vital interest? I guess an argument could be made along those 
lines. I would think in this case, it is really important for 
the international community. If we are going to continue to 
work with the international community, if we are going to be a 
partner with them in deciding what additional actions ought to 
be taking place, that it ought to be within the international 
context that decisions for action ought to be taken.
    Mr. Andrews. How would you characterize the public record 
of the relationship between Syria and Hezbollah?
    Secretary Panetta. The public record, and more importantly, 
the intelligence record that we have is that there is always 
been a close relationship between Syria and Hezbollah, and that 
Hezbollah has always had some level of protection.
    Mr. Andrews. Do you agree with the proposition that the 
weaker Hezbollah is, the better the United States is?
    Secretary Panetta. Hezbollah, in our book, is a terrorist 
organization, they have spread terror not only in that region, 
but elsewhere, and anything--anything done to weaken a 
terrorist group is in our interest.
    Mr. Andrews. Thank you, Mr. Secretary. Mr. Chairman, I 
yield back.
    The Chairman. Thank you very much. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here and General Dempsey, we thank you for your 
service, you are both good men, you have served your country 
well, and we just are honored that you would be here and share 
your thoughts with us here today. We know you have a tremendous 
challenge, and the risk to the country out there is huge today. 
And when we talk about vital national interest, probably there 
is no greater vital national interest that we have than the 
rule of law. So sometimes we have to just ferret that out and 
see what that is.
    And as I understand what you have indicated to this 
committee, Mr. Secretary, and correct me if I am wrong, you 
believe that before we would take military action against 
Syria, that it would be a requirement to have a consensus of 
permission with the international community before that would 
happen. Is that a fair statement, and if not, would you tell me 
what the proper----
    Secretary Panetta. I think that is a fair statement.
    Mr. Forbes. If that is fair, then I would like to come back 
to the question Mr. Jones asked, just so we know, I know you 
would never do anything that you didn't think was legally 
proper, and you said that the Administration would have proper 
legal authority before they would take any military action. So 
my question is what is proper legal authority? And I come back 
to, as Mr. Jones pointed out with the War Powers Act, it is 
unlikely we would have a declaration of war, but that would be 
one of the things. Certainly we know if there was a national 
attack, that would be one of them.
    And then the second thing, of course, the joint--the War 
Powers Act would be specific statutory authorization. Do you 
feel that it would be a requirement to have proper legal 
authority that if you did not have a declaration of war or an 
attack on the United States, that you would have to have 
specific statutory authority, in other words the permission of 
Congress, before you take military action against Syria?
    Secretary Panetta. We would not take action without proper 
legal authority.
    Mr. Forbes. And I understand, and in all due respect, I 
don't want to put you in interrogation, but we are trying to 
find out what exactly proper legal authority is, because that 
is what we have to act under. And we don't have the President 
here to chat with him or have a cup of coffee with him, and ask 
him, you are the closest we get. And so we ask it from your 
understanding and as Secretary of Defense, what is proper legal 
authority? Would that require specific statutory authorization 
from the United States Congress if we had not had a declaration 
of war or an attack upon the United States?
    Secretary Panetta. Well, again let me put it on the this 
basis, this Administration intends to operate pursuant to the 
War Powers Act, and whatever the War Powers Act would require 
in order for us to engage, we would abide by.
    Mr. Forbes. Again, Mr. Secretary, thank you for putting up 
with me as I just try to stumble through this and understand 
it. But as I read the War Powers Act, it has those three 
requirements, are there any other requirements that you are 
familiar with that I am leaving out or not reading?
    Secretary Panetta. No.
    Mr. Forbes. If that is the case, then again, I just come 
back to if there is no declaration of war, no attack upon the 
United States, and if we are going to comply with the War 
Powers Act, would that require specific statutory authority by 
Congress before we took military action?
    Secretary Panetta. Again, under the Constitution, as I 
indicated, the Commander in Chief has the authority to take 
action, that involves the vital interest of this country, but 
then pursuant to the War Powers Act, we would have to take 
steps to get congressional approval. That is the process that 
we would follow.
    Mr. Forbes. You would have to take steps to get that 
approval, but would the approval be required before you would 
take military action against Syria?
    Secretary Panetta. As I understand the Constitution and the 
power of the President, that the President could, in fact, 
deploy forces if he had to under--if our vital interest were at 
stake, but that ultimately then under the War Powers Act, we 
would have to come here for your support.
    Mr. Forbes. So would you get the support of Congress after 
you began military op----
    Secretary Panetta. In that particular situation, yes.
    Mr. Forbes. And then just one last thing and make sure I am 
stating this correctly, it is your position that the 
Administration's position would be that we would have to get a 
consensus of permission from the international community before 
we would act, but that we wouldn't have to get specific 
statutory authority from Congress before we would act?
    Secretary Panetta. Well, I think in that situation, if the 
international action is taken pursuant to a Security Council 
resolution, or under our treaty obligations with regards to 
NATO that obviously we would participate with the international 
community. But then ultimately, the Congress of the United 
States, pursuant to its powers of the purse, would be able to 
determine whether or not that action is appropriate or not.
    Mr. Forbes. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Mr. Secretary and General Dempsey, we certainly appreciate 
your being here and all of your dedicated service.
    I wanted to ask you more about the opposition groups. I 
think you have been quite clear that it is a diverse group and 
probably hard to read them in many ways. Are there several 
issues where you see them fragmenting or coalescing and 
particularly as it would relate to trying to broker any kind of 
agreement with the Assad regime short of eliminating it?
    Secretary Panetta. As I have indicated, there are a number 
of groups that are involved in the opposition. It has not 
always been easy to get those groups to be able to coalesce. 
There are some outside Syrian groups that are making an effort 
to do that.
    There has been better progress by other countries that have 
tried to, one way or another, provide assistance to try to urge 
those groups to coalesce, and there has been a little more 
progress on that front, but it is still a difficult challenge.
    General Dempsey. What I would add, Congresswoman, is--and 
it kind of threads back to an earlier question--why does it 
seem so difficult to get the countries in the region to 
coalesce around a single unifying idea here, I think it is 
because they are extraordinarily cautious about what comes 
next. To thread these two themes together, a different regime 
or a different governance model in Syria will affect the 
relationship of Ankara, Damascus, Cairo, Riyadh, Tehran, 
Baghdad. It will. Now, that is not to predict some negative 
outcome, but it will change. I think what they are circling 
around here is can they get a little clearer idea of what might 
happen on the other end of this. So these two thoughts are 
linked, I think.
    Mrs. Davis. In thinking as well about some of the efforts 
that we have undergone there in terms of humanitarian missions, 
how are we protecting those, if at all? What is happening in 
that arena? And to what extent do we think it is going to have 
a positive effect or helping to mobilize others and/or bring 
the opposition groups together in any way? What effect does it 
have?
    Secretary Panetta. The humanitarian assistance, obviously, 
the State Department is directing most of that assistance, but 
it is going through programs like the World Food Program. There 
is about $10.5 million that is being dispersed in food rations. 
The U.N. High Commissioner for Refugees is providing medical 
services and supplies, food and water, blankets, hygiene kits, 
and heaters at about $8.5 million. And the International 
Committee on the Red Cross is providing relief supplies under 
their authorities at about $3 million. And there are some NGOs 
[Non-governmental Organizations] that are providing some 
additional assistance as well.
    Most of that--I think it is fair to say, Congresswoman, 
that a lot of it is probably being done in the refugee areas 
where a lot of the refugees have gathered; and we have an 
extensive number of refugees both on the Turkish and Jordanian 
borders that have located there.
    Mrs. Davis. So less so in cities, less so in areas where it 
needs to be protected----
    Secretary Panetta. I think that is correct.
    Mrs. Davis [continuing]. As it is going to the population.
    Is there any perception through those efforts that we are 
there to help the people of Syria? That we have ongoing 
efforts?
    Secretary Panetta. Yes, I think it has been made clear that 
we are trying to do whatever we can to provide that help. We 
are making efforts to try to do some outreach into Syria 
itself, to try to assist those who have been harmed and try to 
see what we can do to provide assistance there as well. It is a 
much more difficult challenge.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Mr. Secretary, Chairman Dempsey, thank you for your 
service. I appreciate it as a veteran and also a very grateful 
parent of a son serving in the military.
    In the context of the instability that you are reviewing, 
I'm very concerned about the sequestration of the defense 
budget, which would be a reduction of 8-12 percent beginning 
next January. You both have correctly warned of the hollowing 
out of the military, but people are still confused because they 
have heard and seen a $100 billion cut, a $487 billion cut, and 
now a pending $600 billion cut. It is just total confusion.
    What message do you have to the American people? What do 
you want them to know about the effect of sequestration, Mr. 
Secretary and General?
    Secretary Panetta. Congressman, I tried to make clear time 
and time and time again that sequestration and the cuts 
involved in sequestration would be a disaster for the Defense 
Department and would truly hollow out our force and weaken our 
national defense.
    We are already cutting close to half a trillion dollars 
pursuant to the Budget Control Act. We have made those 
proposals. They are part of our budget. We are doing that over 
10 years. And that has been difficult. It has been a difficult 
challenge to try to do it pursuant to a strategy and do it in a 
way that protects our national defense.
    Sequester, which is a whole other set of cuts that are out 
there that are supposed to take effect in January, represent a 
$500-600 billion across-the-board meat ax approach to the 
budget that would impact every area of the defense budget, 
regardless of policy, regardless of strategy, and blindly 
strike at every area of the defense budget.
    So for that reason, obviously, we have urged the Congress, 
we have urged whoever we can to work together to make sure that 
doesn't happen.
    General Dempsey. I would add, Congressman, in terms of what 
message to the American people, so I think, first and foremost, 
that the military is not oblivious to the economic ills of the 
Nation and have done our best to contribute as part of the 
equation of national power, which includes economic, 
diplomatic, and military power. All three have to be in 
balance. Therefore, we have stepped up to the plate and done 
our best to make better use of our resources.
    Secondly, we adjusted our strategy after the lessons of 10 
years of war and our projection on what the Nation would need 
in 2020, and we mapped the '13-'17 budget to it, absorbing the 
$487 billion cut. And that if we have to absorb more cuts, we 
have got to go back to the drawing board and adjust our 
strategy.
    What I'm saying to you today is that the strategy that we 
would have to adjust to would in my view not meet the needs of 
the Nation in 2020 because the world is not getting any more 
stable. It is getting increasingly unstable, for all of the 
reasons we are talking about here today.
    So, I think we've done as much as we can do, given what I 
know about the future we are about to confront.
    Mr. Wilson. I particularly appreciate your pointing out 
this is not a peace dividend. The world is so dangerous, and so 
thank you for emphasizing that.
    Additionally, General, I am very concerned about the 
National Guard. This year, the Administration has been 
proposing a reduction in 100,000 personnel in the ground forces 
in the Army and the Marines. But, fortunately, in a way for the 
Guard, that is Active Duty. But I see a threat to the Guard. If 
there was sequestration, a concern I have, or reduction in the 
size of our Army Guard, that has already had an impact on the 
Air Guard, which I think is not good, but the cuts, how large 
will these be? A 50,000 reduction? A 100,000 reduction? What 
could our governors, our TAGs [The Adjutant Generals], the 
National Guard families see coming their way?
    General Dempsey. Our job as the Joint Chiefs is to keep the 
force in balance and have enough of it ready to go tonight and 
a different amount of it ready to go in 30 days, 6 months, or a 
year. And that is how we balance the force against 
requirements.
    The reason the Army--and I was the Chief at the time--
didn't take any of this reduction out of the Guard is because 
we had grown the Active Force over the past 10 years by about 
65,000. We had not grown the Guard. We had about 8,000. So when 
we absorbed the cuts, we didn't take many of those cuts off of 
the Guard because we hadn't grown the Guard. We wanted the 
Guard to be about the size it was.
    If you are asking me would a further reduction in our 
budget authority result in an effect on the Army National 
Guard, yes. I can't tell you today how deeply, because it would 
depend on the depth of the cut. If we have to make more cuts 
and if our responsibility remains keeping the force in balance, 
it will affect both Active Guard and Reserve.
    Mr. Wilson. Thank you very much for you concern. I just see 
cuts of dramatic effect affecting American families and our 
security. Thank you.
    The Chairman. Thank you very much for your answers on the 
sequestration. I think this is one of the most difficult issues 
facing our defense. And we understand that defense has to be on 
the table, and we have been there. These cuts that we are going 
through right now are enormous. And the fact that defense 
accounts for 20 percent of the budget and we have taken 50 
percent of the savings out of defense is something that cannot 
be overlooked.
    What we really need to understand is we cannot solve our 
Nation's financial difficulties on the backs of the military. 
And the thing that we really need to keep in mind is if we 
eliminated the whole discretionary budget, defense, all 
discretionary spending, we would still be running a half-
trillion-dollar deficit. So what we really need to do is to fix 
the mandatory spending side of the budget.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here today and your service.
    We have talked about the differences between Syria and 
Libya. We have talked about trying to identify the different 
influences of the different folks within Syria and how tough it 
is to predict an outcome and where this might go.
    So I'm going to put you a little bit on the spot, Mr. 
Secretary. We have seen sometimes democracy, when you give 
people the choice, they don't always choose necessarily what we 
would like for them to choose. So democracy can be 
unpredictable, as we are seeing in some of the results of Arab 
Spring heading in different directions as it plays itself out.
    Scenarios for Syria, as you indicated, it is not a matter 
of if but when this regime falls. What do we anticipate, maybe 
best-case, worst-case outcome being? What kind of government, 
what kind of relationships within Syria? What would be some of 
the things we could look for?
    Secretary Panetta. Congressman, at some point you probably 
ought to sit down with our intelligence analysts to discuss 
some of those possible options.
    I will give you some sense. This can happen in a good way, 
and it can happen in a bad way. If the Assad regime--if we can 
do this pursuant to the Annan ceasefire and the reforms that he 
is suggesting and it is done in a politically careful way in 
terms of implementing the reforms that have to be done and you 
can have Assad move out and try to develop, you know, a 
government that would be able to take its place, that would be 
subject to, hopefully, a vote of the people and implement the 
kind of democratic reforms that ultimately the people deserve, 
that would be the best way for it to play out. And it could be 
done in a way that recognizes that there are divided 
populations in Syria but that all of them would be brought into 
that kind of government. That would be the best way for this to 
move forward.
    The worst way is that suddenly it comes down. Various 
tribes, the various segments of that population that are there 
begin to assert themselves and you have the beginnings of some 
kind of civil war that takes place within there to try to 
assert who should take charge. And that would probably be the 
worst development.
    Somewhere in between, hopefully, you can get some of the 
reforms that need to take place. But, you know, it could take 
us in a better direction. So there is a range of possibilities 
that are there. But I think the bottom line is that anything 
that takes the Assad regime down is a step in the right 
direction right now.
    What the international community has to assure is that, if 
that happens, it happens in the context of legitimate reforms 
that keep that country together and that serve the Syrian 
people.
    Mr. Kissell. Thank you, Mr. Secretary.
    General Dempsey, you mentioned that the relationship 
between the government and the military is strong right now. Is 
there a basis for that relationship being strong in terms of 
maybe just the Generals saying we are going to stay with 
whoever we think is going to come out on top? Is there a 
situation, scenario, where that might change and the military 
might withdraw some of that support and make some other things 
possible?
    General Dempsey. Yes, I think there are conditions. I would 
like to think that the military leaders in Syria would 
recognize that using the kind of violence they are using 
against their own citizens is a fool's errand and that at some 
point that will jeopardize them as an institution.
    By the way, that could be one of the reasons they are 
beginning to hold on tighter now, is that they have used this 
violence and if now they return to garrison and allow a 
referendum to occur, change government, I think they will feel 
themselves to be at great risk.
    I was going to say what we need to do, but this is best 
solved by the regional actors with our support because, you 
know, there is a scenario where, at the end of this, those that 
are arrayed around Assad become the oppressed and, as the 
Secretary described it, we end up in a situation that is a 
prolonged civil war.
    So, yes, I think there is reason to believe that the 
military could come to understand that they are on a path to 
their own destruction as an institution. But I think that case 
has to be made by regional players, less so by us.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, Chairman Dempsey, I want to thank you for 
your strong statements this week on the issues of addressing 
sexual assault in the military. I think your leadership is well 
needed, and I appreciate your strong statements and your strong 
action.
    We had a meeting yesterday with General Amos. We 
understand, General Dempsey, he is certainly echoing your 
strong commitment. We appreciate the efforts of both of you. It 
makes a big difference to the men and women who are serving.
    General, you just said that the world is becoming 
increasing unstable. And, Mr. Secretary, you have recently said 
every day we are within an inch of war. I think as we look to 
the issue of Syria we know that Russia and China have blocked 
two United Nations Security Council resolutions with respect to 
Syria, and certainly I think that takes us to an issue of, when 
we look to the world and instability, of a question with regard 
to Russia and China.
    With regard to Russia, we have seen public reports that 
they continue to arm the Syrian military, have sent Russian 
advisors to Syria, and have deployed naval forces off the 
Syrian coast. My first question is, Mr. Secretary, how would 
you say that Russia is supporting Syria's military today?
    Secondly, I want to switch to China, which unavoidably 
takes us to the issue of North Korea. North Korea's recent 
ballistic missile launch failed. Many people sighed with 
relief, but I think that is probably misplaced relief in that 
we know that North Korea continues its quest for missile 
technology and most recently, in the observance of the 100th 
anniversary of the birth of the founder of the dictatorship, 
brought forward their new road-mobile missile. Secretary Gates 
previously indicated that North Korea is becoming a direct 
threat to the United States.
    I recently wrote to Secretary Clinton and General Clapper--
and I ask that my letter be made a part of the record--over my 
concern of what appears to be China's support for the new North 
Korean missile that was unveiled.
    The Chairman. Without objection, so ordered.
    Mr. Turner. Thank you.
    [The information referred to can be found in the Appendix 
on pages 49-57.]
    Mr. Turner. Specifically, a transporter erector launcher 
system for the new missile that appears to be of Chinese 
origin.
    So my second question then is, Mr. Secretary, can you tell 
me your concerns over China supporting North Korea's missiles, 
and is North Korea a direct threat to the United States? Is 
that something that we are witnessing and have to be concerned 
with China and their involvement?
    Secretary Panetta. Look, there is no question that North 
Korea's capabilities with regards to ICBMs [inter-continental 
ballistic missiles] and their developing nuclear capability 
represent a threat to the United States. For that reason, we 
take North Korea and their provocative actions very seriously.
    Regardless of the success or failure of that effort at the 
launch--and it was a huge failure--the fact is it was a 
provocation. Taking that step was condemned and should have 
been condemned, and our hope is that they don't take any 
additional provocative actions. The history is that they 
usually turn somewhere else to try to do something provocative. 
We hope they don't do that.
    We are prepared from the Defense Department's point of view 
to deal with any contingency. But there is growing concern 
about the mobile capabilities that were on display in the 
parade recently in North Korea. I have to tell you, we need, 
frankly, to get better intelligence as to exactly what those 
capabilities are, exactly what is real and what is not real 
here in order to determine exactly what that threat represents.
    But I think the bottom line is, if they in fact have a 
mobile capability to be able to have ICBMs deployed in that 
manner, that that increases the threat coming from North Korea.
    Mr. Turner. Before the time is expired, the concern then is 
China's involvement with North Korea being able to make these 
advances, support for the systems, and then, of course, 
Russia's involvement with Syria?
    Secretary Panetta. We have made very clear to China that 
China has a responsibility here to make sure that North Korea, 
if they want to improve the situation with their people, if 
they want to become a part of the international family, if they 
in fact want to deal with the terrible issues that are 
confronting North Korea, there is a way to do that. And China 
ought to be urging them to engage in those kinds of diplomatic 
negotiations. We thought we were making some progress, and 
suddenly we are back at provocation.
    Mr. Turner. The concern, obviously, is that, beyond just 
diplomacy, if the equipment itself has trade and technology 
exchanges.
    Secretary Panetta. I am sure there has been some help 
coming from China. I don't know the exact extent of it. I think 
we would have to deal with it in another context in terms of 
the sensitivity of that information. But clearly there has been 
assistance along those lines.
    With regards to Russia, Russia has a long history of having 
provided military assistance and economic assistance to Syria. 
The good news is that Russia is now working with us to try to 
get a ceasefire and hopefully put that in place. They are, I 
think, at least working with the international community right 
now. But the reality is that Russia could have a much more 
significant impact on Syria and on Assad if they were willing 
to assert that.
    Mr. Turner. Thank you.
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Secretary and General.
    Let me ask, Secretary Panetta, violence has not abated. The 
initiatives by U.N. Special Envoy Annan have been undertaken, 
but when do we determine that they are not successful and move 
on to plan B?
    Secretary Panetta. I think that is what Secretary Clinton 
is dealing with in Paris as we speak, which is to look at that 
situation, to determine what the next steps are with regards to 
the Annan initiative.
    I think there is an effort to try to, obviously, deploy 
monitors that can go in and determine whether or not those 
violations are taking place. There is also consideration of 
perhaps a peacekeeper initiative to try to back up the Annan 
initiative with peacekeepers. What the final decisions are, are 
going to rest with the international community.
    Ms. Speier. In terms of arms flowing to Syria from Iran, do 
we have credible estimates on what is flowing from Iran into 
Syria?
    Secretary Panetta. I think, to discuss that in depth, we 
really ought to do it in the context of an intelligence 
briefing.
    Ms. Speier. All right.
    General Dempsey, I'm concerned about the report that NATO's 
assessment of the Libya air campaign found that there were 
numerous problems with cooperation when it came to sharing 
target information and sharing analytical capabilities. How are 
we incorporating the lessons learned from Libya into our 
current actions in Syria?
    General Dempsey. I actually was encouraged that the lessons 
learned were credible and transparent, because I was a bit 
afraid that there was going to be this euphoria about Libya as 
a template for future actions that would have taken us down a 
path that probably would be ill-advised.
    So I am alert to that. I'm actually going to Brussels next 
week to meet with my NATO CHODs [Chiefs of Defense]. One of the 
agenda items is, in fact, Operation Unified Protection.
    What we have got to do is we have got to be candid with 
each other--I can assure you I will be--about what they can 
reasonably expect us to provide, what they need to provide in 
terms of ISR [Intelligence, Surveillance, and Reconnaissance], 
the analysis fusion of intelligence and operations, and 
investments that they need to make in order to close some gaps 
that heretofore they relied almost exclusively on us to 
provide. So I actually see this as a positive thing.
    Ms. Speier. General, what do you think are the greatest 
risks if the United States intervenes?
    General Dempsey. In Syria?
    Ms. Speier. Yes.
    General Dempsey. First of all, on occasion I have been 
portrayed as saying this would just be too hard, so let's not 
do it. I want to assure you that is not the case. If asked to 
do something, we absolutely have the capability.
    But in terms of my concerns and how they would translate 
into military advice, I would have to be very clear about the 
military objectives that I was being asked to achieve, and I 
would have to be clear about how those military objectives were 
contributing to some outcome that we would all understand and 
probably agree upon.
    So what is the outcome? If it is just stopping the 
violence, that is one outcome. If it is changing the regime, 
that is another outcome. But the point is I can build from that 
outcome. I can build military options.
    My other responsibility is to balance the risk to the 
mission. What would be the cost of doing this in lives and 
equipment? And the risk to the force? Because it is a zero sum 
game. We are deployed all over the world. If I am asked to do 
something in Syria, if the Secretary turns to me and says, I 
need this option developed, then my responsibility is to assure 
that I understand the military objective, I build an option 
that will deliver it, and that I articulate the risk, not just 
to the mission we are talking about but to our global 
responsibilities. And it is all an integrated part of my 
advice.
    Ms. Speier. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Panetta and General Dempsey, thank you for 
joining us and thank you for your service to our Nation.
    Secretary Panetta, I will begin with you. I want to follow 
up on your scenarios of looking at U.S. engagement in Syria. 
You spoke about engaging the international community, looking 
at NATO partners, and making a decision about that particular 
engagement. Do you envision a scenario where the U.S. would act 
unilaterally? And do you also look at a situation where, in any 
scenario, would the U.S. look at a broader combat perspective 
on that? In other words, will we have boots on the ground 
moving into a peacekeeping operation in that scenario? So I 
want to get your perspective on that.
    Secretary Panetta. At this point in time, Congressman, the 
decision is that we will not have any boots on the ground and 
that we will not act unilaterally in that part of the world.
    Mr. Wittman. I just wanted to make sure that we were 
looking at those particular scenarios.
    General Dempsey, to get your perspective, we see what is 
happening in Syria. We also see the Arab Spring. That has 
unfolded in the Middle East over the last 18 months. As you 
look at that scenario, are you concerned about the continual 
expansion of the effort by Assad in Syria maybe moving to other 
areas in the Middle East--Turkey, Lebanon, Iraq? What is your 
perspective on what potentially this holds if this effort in 
Syria continues?
    General Dempsey. Again, speaking as the principal military 
advisor to this body and the President's SecDef [Secretary of 
Defense] and National Security Advisor, I don't see the Assad 
model spreading. I think quite the opposite. I think the model 
is that previously suppressed populations, seeing what is 
happening around them, are beginning to rebel against the 
traditional strongmen, who in many cases have been from the 
minority side of the demographic equation.
    That is why I agree with the Secretary that change in Syria 
is inevitable. I don't know how long it will take for it to 
occur, but it will occur. I have concerns about that. Because I 
think long term we are all eager to see these populations that 
have long not been reaping the benefits of the resources in 
their country, have been suppressed politically, and in some 
cases have been suppressed even in terms of their religious 
freedoms and certainly women's rights.
    I think that long term this will become a stabilizing 
influence. But I think getting from here to there is going to 
be a wild ride. So I think we are in for 10-15 years of 
instability in a region that has already been characterized by 
instability.
    Mr. Wittman. Let me ask you, too, on this line, General 
Allen was here testifying before us last month talking about 
operations in Afghanistan. I want to get, both Secretary 
Panetta and General Dempsey, your perspectives.
    His comments were this. He said that he saw the use of U.S. 
power there extending past 2013. I want to get your perspective 
on that and understand, do you agree with General Allen? Are 
you looking to him as far as his guidance, his thought about 
how we utilize our current forces there, as we are drawing 
down? What is necessary past 2013?
    Because I think all of these parts of what happens not only 
in the Middle East but also there in Afghanistan and obviously 
our efforts there in Iraq are all intertwined, so I want to get 
your perspectives on that.
    Secretary Panetta. Congressman, you bet we are listening to 
General Allen. He is the best. He has exercised tremendous 
leadership out there and tremendous dedication and, more 
importantly, he has put together a very good plan for the 
future with regards to Afghanistan.
    As I have pointed out, 2011 was a turning point. We have 
seen the Taliban weaken. They have not organized an effort to 
regain any area that they have lost. They have engaged in these 
sporadic hits. And we expect that they will continue. They are 
resilient. But they have been weakened.
    More importantly, the Afghan people themselves have 
rejected them.
    More importantly than that, the Afghan Army is beginning to 
operate on its own. These events that took place in Kabul over 
the weekend told us, told General Allen, that the Afghan Army, 
the Afghan police, are in fact becoming an effective force to 
achieve security in Afghanistan.
    And more importantly, the transitions are working. We have 
two tranches of transitions that have occurred. Fifty percent 
of the population is now under Afghan security and control. The 
third tranche, which is to take place this year, will put 75 
percent of the people under Afghan security and control.
    So the plan and the strategy that General Allen has 
developed, and that NATO supports, is to proceed with that plan 
to take us through 2013 and be able to complete the final 
transitions and then draw down to the end of 2014. And then, 
beyond that, to have an enduring presence there that represents 
a continuing effort to provide support to the Afghans on 
counterterrorism, on training, advice and assist and other 
areas.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here.
    General Dempsey, earlier, before votes, you were answering 
questions about chemical and biological weapons in Syria, and I 
don't want to recharacterize your comments so I will say what I 
thought I heard, and then you can recharacterize more 
accurately.
    Did you say that you thought we had sufficient transparency 
into the security and location of the Syrian chemical and 
biological weapons caches?
    General Dempsey. I did. To recharacterize it, I believe we 
have sufficient intelligence on their facilities related to 
chemical and biological weapons in consultation with our close 
allies in the region.
    Mr. Larsen. The second part of that question is kind of the 
``so what'' question. So what if we do? Does that mean that we 
are in a position to do something about it if the circumstance 
arises where we need to do something about it, and are we 
willing to do that, and who makes that call?
    General Dempsey. Well, let me start where you began, which 
is the ``so what'' of it. As we watch these facilities and 
monitor--if you are talking about what are our vital national 
interests in that particular country, it seems to me that the 
proliferation or the potential proliferation of chemical and 
biological weapons, that is to say weapons of mass destruction, 
would be right at the top of the list.
    Mr. Larsen. I would agree with that. In terms of the 
discussions we are having today about Syria and the resistance 
and the violence in Syria, if Syria was going to use--if we 
thought Syria was going to use these chemical and biological 
weapons, what do we do?
    General Dempsey. Again, because of the classification of 
this setting, let me just assure you that we have planning that 
is updated constantly on actions we could take in the event 
that those weapons--and, by the way, the planning is being done 
with our allies in the region.
    Secretary Panetta. I just wanted to assure you on that last 
point that we have made plans to try to deal with any 
contingency involving those areas. Because we think that does 
represent the most serious concern with regards to our 
security.
    Mr. Larsen. I understand the classification here, and 
hearing that assurance is important. We can explore this later 
in a different venue.
    Secretary Panetta, I want to change the focus a little bit. 
Folks have been asking about Afghanistan and China and Russia. 
I want to ask about the story I read this morning about Yemen. 
Because about 2 years ago, the current CIA [Central 
Intelligence Agency] director was sitting about where you are 
sitting as a CENTCOM [Central Command] telling us that we did 
understand there is a difference between a civil war and what 
is a counterterrorism national security interest that the U.S. 
is trying to be supportive of in Yemen. A lot has changed since 
then obviously with the Arab Spring, but I don't know that a 
lot has changed in terms of the U.S. staying out of a civil war 
versus the U.S. continuing to pursue a counterterrorism 
strategy in Yemen.
    The story this morning about joint strikes, whether it is 
true or not--let's assume that it is just a story and we are 
reading it--that the CIA is looking at changing their strategy 
on how they conduct joint strikes and where they go, causes me 
to question whether or not--is the CIA tail-wagging the DOD 
[Department of Defense] dog or the State Department dog on this 
issue? I will just put it out to you. We need to have that 
answer, and you can't leave the dais until you answer that.
    Secretary Panetta. Thank you.
    First of all, with regards to the story in the paper, I 
think those involved classified operations, and I guess I would 
urge you to try to get what is behind that based on that kind 
of classified briefing.
    With regards to the larger issue--and I understand the 
implications of what you are asking--from DOD's perspective, 
and I think it is, frankly, true for Intelligence, our target 
there represents those terrorists--those Al Qaeda terrorists 
that involve a threat to this country. And there are very 
specific targets. This is not broad based. We are not becoming 
part of any kind of civil war disputes in that country. We are 
very precise and very targeted and will remain pursuant to 
those kinds of operations.
    Mr. Larsen. That is great from a DOD perspective. I guess 
we need a little clearer idea about the Administration's 
perspective, if they are changing their view about Yemen or not 
over the last couple of years.
    Secretary Panetta. Again, without going into specific 
details here, the position of the administration is that our 
interest in Yemen is the same interest we had in the FATA 
[Federally Administered Tribal Areas] and we have in Somalia, 
which is to go after those terrorists--those al Qaeda 
terrorists who are involved in planning attacks on this 
country. No more, no less.
    General Dempsey. If I may add, that is on what we are doing 
kinetically. But I also want to point out that we are working 
very closely with the military in Yemen, notably their special 
forces, to increase their capabilities as a building-partner-
capacity endeavor. So I think it is important not to see this 
as we are only doing one thing and not the other. We are 
actually trying to round it off.
    Mr. Larsen. I appreciate that. Thank you.
    The Chairman. Thank you.
    Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman. And thank you again for 
you guys being here today.
    Just real briefly, over the next 3 months, can you just 
explain to us how you see the opposition? Do you see it 
fragmenting or do you see it coalescing? How do you see this 
playing out over the course of the next 3 months?
    Secretary Panetta. In Syria?
    Mrs. Roby. Yes. Sorry. Back to the topic.
    Secretary Panetta. If I could give you a firm answer as to 
what we saw happening, I probably wouldn't be in this job. I 
would be somewhere else.
    It is a tough thing to try to look at the elements at play 
here and try to determine just exactly how this will play out. 
Obviously, Intelligence has provided its perspective on this.
    I think the best thing that we can see is that, as a result 
of this broad-based insurgency, as a result of the 
international community's unified approach to dealing with 
Syria and applying the sanctions, applying the pressures, and 
continuing to indicate that Assad must step down, as a result 
of what the U.N. is doing now in implementing a ceasefire where 
you now have the support of Russia and China, there is a whole 
series of efforts here that I think are putting incredible 
pressure on the Assad regime to do the right thing. This may 
continue to play out. Assad will continue probably to resist 
these efforts, but I think it is just a matter of time before 
he is brought down.
    General Dempsey. I have nothing to add, Congresswoman.
    Mrs. Roby. I guess, playing off of that, the Department of 
Defense's assumptions around this, how have our plans evolved 
specifically over the last year since we have seen the Syrian 
revolution commence?
    Secretary Panetta. What we do and what General Dempsey does 
with the service chiefs is to develop all of the plans 
necessary for any contingency. And whatever the President 
ultimately decides, we will be prepared to implement.
    General Dempsey. Just to kind of give you the view of the 
region writ large, we are a NATO partner with Turkey. We have a 
very strong relationship with Jordan. Obviously, Israel. We are 
still 200-300 military strong in Iraq. And of course Iraq has a 
piece of this as well on their western border.
    We have been meeting with leaders throughout the region. 
The Secretary met with President Barzani from the Kurdish 
region, and they have a huge interest. There are Kurd 
populations in northeastern Syria, in eastern Turkey, in 
western Iran, and in northern Iraq. And these issues are all 
intertwined. So, right now, we are in the business of sharing 
intelligence, sharing information, building partner capacity 
where we can, and having the credible thread of military 
capability to undergird our diplomatic and economic efforts.
    Mrs. Roby. I guess what I would just add to that is, based 
on comments that have been made from my colleagues in their 
previous questioning as it related to what happened in Libya 
and maybe the concerns regarding the War Powers Act and how we 
proceeded in that action that, of all of the conflicts that we 
have dealt with over the past years, that the one lesson 
learned is end game and that there needs to be a clear defining 
of the mission on behalf of our troops, our military families, 
and also Americans. So it is my hope, and echoing the 
sentiments of my colleagues, that as we move through this, as 
you continue to share information with us, as we act in our 
congressional oversight role, that there will be clear lines of 
communication on behalf of our military families and the 
American people.
    Secretary Panetta. I appreciate that concern. I want to 
assure you that I think General Dempsey and I are unified with 
regards to not proceeding with any military action unless there 
is a clear objective, unless we know what it is going to take 
to achieve that objective, how long is it going to take, and 
ultimately do we have a legal authority to in fact accomplish 
what we are being asked to accomplish. And that would involve 
very close consultations with Congress.
    Mrs. Roby. Thank you both so much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank both of you for being here.
    General Dempsey, it looks like it is a real possibility 
that a post-Assad government might potentially be dominated by 
the Muslim Brotherhood, as seems to be coming to pass in Egypt. 
What do you think the major likely impacts will be on the 
security of Israel and other U.S. interests in the region if 
that occurs?
    General Dempsey. Yeah, I wouldn't personally predict it 
would be Muslim Brotherhood. But what we do know for a fact, 
just demographically, is that 70 percent of the Syrian 
population is of the Sunni confessional of Islam. And, 
therefore, you would have a pretty dramatic shift from a 
minority government and a majority out of power to the majority 
in power.
    I think there will be some combination of conservative 
Islamic party's secular--Syria has quite a tradition of 
secularism that I wouldn't discount. And among the minority, 
the Kurds, the Druze, and the Christians, who have been 
supported by the Assad party, but I think they could be 
persuaded to become part of the government. And that's the 
point, I think, is that in terms of looking toward helping 
identify the opposition but then also holding them accountable 
before we support them, to committing themselves to a 
representative, shared government at the end of this thing so 
that we don't end up creating the conditions for a civil war.
    Mr. Franks. I think that sounds good. I guess my concern 
is, of course, you know, in Egypt, Egypt was a fairly moderate 
government as far as the Arab world goes. And with their 
elections, they brought in about 40 percent Muslim Brotherhood, 
in their parliamentary elections about 20-some plus Salifis, 
and that is a fairly frightening coalition.
    I suppose the question then should be asked: What are we 
doing and what more can we do to ensure that Syrian Kurds, 
Christians, any of the Jewish population, and other minorities 
there are fully protected and will have meaningful roles in 
building at least a religiously and ethnically tolerant 
democratic Syria, should the Assad regime be eventually 
overthrown?
    We tried to do that in Iraq. Many of us were quite 
concerned about religious freedom there. That was not achieved, 
and there is a terrible purging, especially of the Christian 
population in Iraq now. It is a frightening thing, I think, to 
a lot of us. What can we do to try to prevent that dynamic from 
occurring in Syria in a post-Assad regime?
    I direct that to either of you.
    Secretary Panetta. The things you have pointed out are 
truly legitimate concerns. You know, I guess the response is 
that if we can build democratic institutions into these 
countries, and to some extent we even see it--we see it in 
Iraq. We are beginning to see it in Egypt. We certainly see it 
in Libya. Which is that once you build some of these 
institutions where parties have to participate in governing and 
they have to look at how they can build coalitions and try to 
meet their responsibilities to the people, that, whether you 
like it or not, it does have some kind of moderating impact.
    Even in Egypt, where I understand your concerns, the fact 
is that the Brotherhood, there are various segments of the 
Brotherhood. Some are now trying to understand that they are 
going to have a bigger responsibility there. They are going to 
have to exercise leadership with regards to every aspect of 
governing there.
    And in Iraq, every time it looks like it is headed in one 
direction, the fact is that the Kurds and others that are part 
of that government continue to bring pressure on the president 
to try to stay in the right path. It doesn't always work as 
crisply as we would like, but the fact is it does impact on 
that. We are seeing some of that in Libya.
    There are a lot of forces. As a result of the Arab Spring, 
we have unleashed a lot of forces here. But one thing I don't 
think we ought to lose sight of is that, as a result of all of 
this, we can direct and help direct those countries in a better 
direction than where they were. We have to stick to that.
    Mr. Franks. Mr. Secretary, if I could try to squeeze in one 
last--because you're on the right track here. I guess I'm 
hoping that we might be able to involve some of the religious 
and ethnic minorities, at least in northern Syria. Because it 
seems to me if we do that ahead of time, we have a chance of 
ameliorating the issue.
    And, of course, we should probably be pretty thankful to 
Israel for taking out the nuclear plant at this point, if the 
Muslim Brotherhood does gain control of Syria.
    Any thoughts you may have?
    Secretary Panetta. No, I agree with what you just said.
    Mr. Franks. Thank you.
    Mr. Wilson. [Presiding.] Thank you, Mr. Franks.
    It is very fitting as we conclude with Congressman Chris 
Gibson of New York, who himself is a distinguished veteran of 
service in the Mideast and in Central Asia. Congressman Gibson.
    Mr. Gibson. Thank you, Mr. Chairman. I appreciate the 
strong leadership in the Department of Defense of both 
distinguished careers of the gentlemen with us today.
    I will talk about Syria in a second, but while I have the 
Secretary, I am very curious to hear his feedback. So I am 
recently back from Fort Bragg, visiting with one of the 
subordinate commands of the Special Operations Command. In 
previous work with General Clapper and the Intelligence 
Community--and let me say up front that it is remarkable the 
level of teamwork that is going on out there, but yet I feel 
that we are lacking in terms of systemic codification of some 
of the very encouraging developments over the past decade.
    I am still hearing that it is not very often but it can 
happen that the Intelligence Community may be working a line of 
operation, Special Operations Command may be working a line of 
operation, and figuratively they will bump into each other. I 
know there are efforts to bring stronger collaboration in terms 
of information-sharing, but, given your recent history and 
work, I would be very curious to know now in your current 
capacity what your thoughts are in terms of reform to bring a 
closer collaboration between the Intelligence Community and the 
Department of Defense?
    Secretary Panetta. I would yield to General Dempsey on this 
as well, but from my own experience as director of the CIA and 
now as Secretary of Defense, at least in the history that I 
have been in this town, I don't think there is a better 
relationship between the intelligence and the military 
operations, special operations forces, than there is today. 
They are truly working together.
    Whether those operations are taking place in Pakistan, 
Afghanistan, in Yemen, in Somalia, other parts of the world, 
they are unified in the approach. They are working off of 
strong intelligence resources that are being shared. The 
operations that are developing, whether they are done on a 
covert basis or an overt basis, are basically worked out in the 
operations centers that have developed in each of those areas. 
There is very close coordination. There isn't a target that is 
taken on that doesn't involve the participation of both the 
intelligence and military operations, and they are doing it 
very effectively.
    I do think that we need to learn the lessons. I think you 
are right that we need to put in place probably the kind of 
lessons learned so that we can make sure that the kind of 
cooperation that is going on now is one that continues. That is 
probably my biggest concern, is that it is working well now. We 
are facing Al Qaeda and we are facing terrorism together. But 
as we are able to achieve some success there, there may be a 
danger that both of these may go off and try to do their own 
thing. That is what we have to pay attention to.
    General Dempsey. Yes. I would only add that the sort of 
game-changing lessons learned over the last 10 years are the 
integration of ISR, SOF [Special Operations Forces], and cyber, 
by the way. So I think where you are seeing us move with our 
new strategy is we call it a global networked approach to 
warfare. Global and networked are the operative words.
    Think of it this way: Most of our adversaries, in fact even 
state actors, are not confronting us directly. They are 
confronting us through networks of surrogates and proxies and 
asymmetrically. So to defeat a network, we have to be a 
network.
    It gets right at what you said, Congressman. We have to 
find ways to network our capabilities internal to the 
interagency of government--DHS [Department of Homeland 
Security], FBI [Federal Bureau of Investigation], DOD, CIA, and 
all of those--as well then with our international partners in 
ways that we haven't had to do before. But we are on it. We are 
working it.
    Mr. Gibson. I concur with the assessment. And, of course, 
as we go forward, we don't want to overcodify to the point that 
we stifle initiative. But I am also concerned and I think I 
hear the same thing that much of this is based on 
relationships. It is forged in the crucible. And to the extent 
that we can codify that, that it wouldn't come to an end in the 
event that two individuals, very strong willed, may not get 
along, we still need this to work. So much to do.
    Just one specific question--I see my time is getting short 
here. But with regard to the unrest in Syria, have there been 
any adverse implications, ramifications in Anbar and in Nineveh 
Province?
    General Dempsey. No, not coming from Syria in. One of the 
biggest tribes in the Arab world, and you probably know this 
having served there, but it runs from northern Saudi Arabia 
through western Iraq and up into Syria, and there is assistance 
being provided on the basis of tribal relationships flowing 
into Syria. It is another one of the complications I mentioned. 
But we haven't seen any kind of backwash coming back the other 
way.
    Mr. Gibson. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Gibson.
    As we conclude, Mr. Secretary, thank you for being here 
today. Thank you for your service.
    Chairman Dempsey, thank you again for your service and your 
commitment to our troops, military families, and veterans.
    We shall be adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 19, 2012

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 19, 2012

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 19, 2012

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 19, 2012

=======================================================================
      
                   QUESTION SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. As you know, Russia has not been cooperative in moving 
the UN closer to authorizing some form of action in Syria. Some members 
have suggested that we use some sort of pressure on Russia to help 
convince them to be more helpful. For example, we could fence 
Cooperative Threat Reduction funds. Do you believe that this is a good 
idea? Why or why not?
    Secretary Panetta. Cooperative Threat Reduction funds, such as the 
Department's Nunn-Lugar program, typically deal with weapons of mass 
destruction issues on which the U.S. and Russia have cooperated 
successfully. These programs are important to both governments and the 
international community writ-large.
    The U.S. continues to engage with Moscow at the highest levels on 
Syria in an effort to persuade them that continued support of the Assad 
regime, including through weapons transfers, is not in their long-term 
strategic interests. We believe that continued engagement with Russia--
rather than threatening decades-old programs that benefit both sides--
offers the best chance of impacting Russian calculations on this issue.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Secretary Panetta, to the greatest extent that you 
can, given the unclassified environment of this hearing, please share 
with us your views on the stability of the ``cessation of violence'' 
and the most likely end-game scenarios in Syria.
    Secretary Panetta. The U.S. Government policy is to hasten the fall 
of the Asad regime and push forward with a stable and democratic 
transition.
    As UN/Arab League Joint Special Envoy Kofi Annan recently reported, 
the Asad regime has, so far, failed to comply with key obligations. The 
Asad regime's forces have not pulled back from population centers, and 
a heavy military presence still poses a significant threat to the 
Syrian people. It remains to be seen if the Asad regime will maintain 
its pledge to permit peaceful demonstrations, open access for 
humanitarian aid and journalists, and begin a political transition.
    Mr. Langevin. Recent news articles have reported that Turkey is 
seriously considering the creation of an exclusion zone inside Syrian 
borders. Can you provide an assessment of the feasibility and 
likelihood of such an undertaking, as well as the effect that it would 
have on the security situation? How would such an action affect our 
NATO treaty responsibilities?
    Secretary Panetta. Turkey is rightly concerned about the brutality 
of the Asad regime, the resulting in-flow of Syrian refugees into 
Turkey, and incidents of violence along and across the Turkey-Syria 
border. As NATO Secretary General Rasmussen has stated that the 
Alliance is closely monitoring the situation along the Turkish-Syrian 
border.
    As the international community works to find a way to end the 
violence in Syria, the United States is conducting planning for a range 
of scenarios, including how to support partners and Allies that border 
Syria. Turkish officials have also said that they have their own 
planning for a possible exclusion or buffer zone. Turkey has a modern 
force and would likely be capable of establishing and maintaining an 
exclusion zone inside Syrian borders, whether opposed or unopposed. 
However, since Turkey has not formally approached the United States or 
NATO to discuss the details of its planning, it is difficult to assess 
the feasibility or likelihood of a Turkish exclusion zone inside Syria.
    As a NATO member, Turkey has the right to assess that the violence 
along its border with Syria warrants consultations with Allies under 
Article 4, which stipulates that Parties to the North Atlantic Treaty 
may consult whenever, in the opinion of any Ally, the territorial 
integrity, political independence, or security of an Ally is 
threatened. If Turkey were to approach Allies under Article 4 with 
concerns about its border, the United States and all Allies are obliged 
to determine if the Turkish situation warrants an Alliance response to 
restore and maintain security in the region--an obligation I take 
seriously.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Secretary Panetta, how should Congress measure whether 
the Annan plan is working in Syria? What options are on the table 
moving forward?
    Secretary Panetta. As UN/Arab League Joint Special Envoy Kofi Annan 
recently reported, the Asad regime has, so far, failed to comply with 
key obligations. The Asad regime's forces have not pulled back from 
population centers, and a heavy military presence still poses a 
significant threat to the Syrian people. It remains to be seen if the 
Asad regime will maintain its pledge to permit peaceful demonstrations, 
open access for humanitarian aid and journalists, and begin a political 
transition.
    We continue to work with our international partners to come to a 
political solution that ends the violence in Syria and prepares the 
groundwork for a stable transition in which Asad leaves.
    However, we are also attuned to efforts by the Asad regime to 
forestall international action by making additional empty promises or 
taking half steps. We therefore maintain close contact with our allies 
and partners regarding potential cooperative measures that could be 
taken to support the UN monitoring mission in Syria.
    Ms. Speier. Secretary Panetta, some argue that the perceived 
absence of international support is making the armed opposition more 
jihadist in nature. In your opinion, is there any validity to this 
concern?
    Secretary Panetta. Based on what is known, extremist elements--and 
foreign fighters in particular--still appear to have a relatively small 
role in relation to the armed Syrian opposition. The United States will 
continue to monitor extremist groups closely and work with allies and 
partners to disrupt flows of terrorist financing and foreign fighters.

    Ms. Speier. General Dempsey, in its quarterly report to Congress, 
the Special Inspector General for Iraq Reconstruction stated that Iraq 
cannot defend its air space if Iran violates it to provide arms to 
Syria. Recognizing that this is an unclassified forum, to what degree 
can Syria's other neighbors prevent arms flows to support the regime 
through Turkey, Iraq, and Lebanon?
    General Dempsey. Internal politics, a lack of resources, and an 
expansive border make it difficult for Jordan and Lebanon to 
effectively secure their territories. Amman is dealing with an influx 
of Syrian refugees and Beirut is divided along pro- and anti-Syrian 
lines. However, both countries have increased border security through 
the continued deployment of troops and equipment, as Amman and Beirut 
fear weapons smuggling and movement of fighters would increase the 
potential for violence to spill across the border. Turkey has numerous 
means to prevent arms shipments into Syria, including routine customs 
enforcement procedures, diplomatic and economic pressure, and military 
options. Turkish military and Jandarma forces frequently patrol 
mountainous and desert terrain along Turkey's borders, making such 
routes unreliable for smuggling large shipments and heavy weapons. 
Turkey has not closed its border or ceased trading with Syria, however, 
and the large volume of traffic originating from and transiting Turkey 
prevents Ankara from inspecting all trucks, aircraft, and ships bound 
for Syria.
    Ms. Speier. General Dempsey, former U.S. envoy to Bosnia Daniel 
Serwer recently argued that the presence of observers is tamping down 
the violence, but that there are insufficient numbers of observers on 
the ground. In your assessment, how many observers would be necessary 
to meaningfully decrease the violence? To end it?
    General Dempsey. It is difficult to determine the number of 
observers necessary to decrease violence or make it end. UN observers 
provide a monitoring function that does not involve direct intervention 
to stop violence. We support UNSCR 2043 that mandates 300 UN Military 
Observers (unarmed) on the ground in Syria. These observers will 
provide substantial distributed monitoring capacity. We believe this 
force will be in place by the end of May and it will take some time to 
assess the effect their presence is having both on Regime and 
Opposition actions.

                                  <all>

</pre></body></html>
